DOE/IG-0464




 INSPECTION                     FOLLOW-ON REVIEW OF THE
   REPORT                              STATUS OF THE
                               U.S. DEPARTMENT OF ENERGY’S
                                   COUNTERINTELLIGENCE
                                   IMPLEMENTATION PLAN




                                       MARCH 2000




  U.S. DEPARTMENT OF ENERGY
 OFFICE OF INSPECTOR GENERAL
     OFFICE OF INSPECTIONS
                                         Department of Energy
                                              Washington, DC 20585


                                                  March 22, 2000


MEMORANDUM FOR THE SECRETARY

FROM:              Gregory H. Friedman (signed)
                   Inspector General

SUBJECT:           INFORMATION: Report on “Follow-on Review of the Status of the U.S.
                   Department of Energy’s Counterintelligence Implementation Plan”

BACKGROUND

The National Defense Authorization Act for Fiscal Year 20001 requires the President to
submit a report to Congress that includes an assessment by the Inspectors General of the
Departments of Commerce, Defense, State, and the Treasury and the Inspector General of
the Central Intelligence Agency of the adequacy of counterintelligence measures to
protect against the acquisition of United States (US) technology and technical
information with potential military applications by countries and entities of concern. The
Department of Energy (DOE) Office of Inspector General participated on the interagency
working group established to conduct the assessment.

The DOE Counterintelligence Implementation Plan, which was developed subsequent to
the release of Presidential Decision Directive 61 in February 1998, included 46
recommended actions to reorganize and improve the Department’s counterintelligence
program. In July 1999, we reported that 28 of the 46 recommendations in the
Counterintelligence Implementation Plan had been implemented.

The purpose of our current review was to determine what actions had been taken by DOE
officials on the 18 recommendations in the Counterintelligence Implementation Plan that
were open at the time of our 1999 review. We also sought to determine if information is
shared between the DOE Office of Counterintelligence and other agencies, and to
determine the level of involvement by the DOE Office of Intelligence with other agencies
in the development of information to help counter illicit technology transfer. We did not
assess the extent to which the recommendations in the Counterintelligence
Implementation Plan will improve the effectiveness of DOE’s counterintelligence
program.




1
    The National Defense Authorization Act for Fiscal Year 2000 also established the National Nuclear Security
    Administration (NNSA) with responsibilities for counterintelligence, intelligence, and security. A number of
    Department of Energy program offices, Operations Offices, and National Laboratories report, in whole or in part,
    to the NNSA. Any reference to the Department of Energy includes the NNSA.
RESULTS OF INSPECTION

Of the 18 recommendations in the Counterintelligence Implementation Plan that were
open at the time of our 1999 review, 10 recommendations are currently open. We
identified weaknesses in the implementation of two of the 10 open recommendations and
suggested actions that, in our view, will help expedite their implementation. One
weakness concerns the inability of the Department’s Foreign Access Records
Management System (FARMS), which is DOE’s central data base for tracking foreign
visits and assignments, to provide the precise number of foreign visitors or assignees to
DOE facilities. Current DOE policy does not require DOE laboratories to enter data into
FARMS. In the absence of complete data in FARMS, the counterintelligence
requirement that data on foreign visits and assignments to all DOE sites must reside in
DOE’s central tracking system cannot be met. Therefore, we suggest that DOE officials
take appropriate action to ensure that, as a minimum, DOE sites are required to enter data
concerning foreign visits and assignments into FARMS or a designated central DOE
database.

The second weakness concerns delays in obtaining clearances for DOE field
counterintelligence analysts to access Sensitive Compartmented Information (SCI). To
better integrate the field counterintelligence and intelligence elements at the DOE
weapons laboratories, counterintelligence analysts are to be co-located with Field
Intelligence Elements. However, SCI clearances for the field counterintelligence
program managers and analysts have taken, or are taking, months to obtain. Therefore,
we suggest that DOE officials take appropriate action to expedite processing of SCI
clearances for the field counterintelligence program managers and analysts to enable
them to access Sensitive Compartmented Information Facilities to perform SCI activities.

We determined that the DOE Office of Counterintelligence and other US Government
agencies share counterintelligence information. Also, we determined that analyses
developed by the DOE Office of Intelligence, which might assist DOE and other
government activities to counter the illicit transfer of US technology to foreign
governments, are being made available to interested activities. We made no
recommendations to management.

MANAGEMENT REACTION

Management generally agreed with our report. The Director of DOE’s Office of
Counterintelligence agreed generally with the observations and conclusions in our draft
report and appreciated our suggestions. The Director of DOE’s Office of Intelligence
concurred with our description of the involvement by his office with other agencies in the
development of information to help counter illicit technology transfer. The Director of
DOE’s Office of Foreign Visits and Assignments provided an update and status report on
two recommendations in the Counterintelligence Implementation Plan that were
discussed in our draft report.

Attachment

cc: Deputy Secretary
    Under Secretary
    Acting Under Secretary for Nuclear Security
FOLLOW-ON REVIEW OF THE STATUS OF THE
U.S. DEPARTMENT OF ENERGY’S
COUNTERINTELLIGENCE IMPLEMENTATION PLAN


TABLE OF
CONTENTS


              OVERVIEW


              Introduction, Background, and Objective ……………….     1

              Observations and Conclusions ……………………..……           2


              RESULTS OF INSPECTION

              Counterintelligence Implementation Plan ………………      3

              Information Sharing by the Office of
                Counterintelligence ..…………………………………….             6

              Involvement by the Office of Intelligence …….…………   7

              MANAGEMENT REACTION …………………..………..                  8

              INSPECTOR COMMENTS …………….………..……….                  8

              APPENDICES

              A. Scope and Methodology………………….…..……….             9

              B. Energy Implementation of 1999
                   OIG Suggestions …………………………………. 10

              C. Recommendations Implemented Since
                   1999 OIG Report …………………………………. 12

              D. Status of Open Recommendations ……….………… 14
Overview
INTRODUCTION,                       The National Defense Authorization Act for Fiscal Year 20001
BACKGROUND, AND                     requires the President to submit to Congress an annual report to
OBJECTIVE                           include, as a minimum, an audit by the Inspectors General of the
                                    Departments of Commerce, Defense, Energy, and State of the
                                    policies and procedures of the United States (US) Government
                                    with respect to the export of technologies and technical
                                    information with potential military applications to countries and
                                    entities of concern. The first annual report was to include “an
                                    assessment by the Inspectors General2 . . . of the adequacy of . . .
                                    counterintelligence measures to protect against the acquisition by
                                    countries and entities of concern of United States technology and
                                    technical information . . . .” An interagency working group,
                                    comprised of representatives from the Offices of Inspector General
                                    of Commerce, Defense, Energy, State, the Treasury, and the
                                    Central Intelligence Agency (CIA), as well as the Inspection
                                    Division of the Federal Bureau of Investigation, was established to
                                    conduct the assessment regarding the adequacy of
                                    counterintelligence measures.

                                    In February 1998, the President issued Presidential Decision
                                    Directive 61 (PDD-61), which was designed to, among other
                                    things, reorganize and improve the counterintelligence program of
                                    the Department of Energy (Energy). Subsequent to the release of
                                    PDD-61, Energy developed the Counterintelligence
                                    Implementation Plan, which included 46 recommended actions to
                                    achieve this goal. In response to a May 1999, request from the
                                    Under Secretary of Energy, the Energy Office of Inspector General
                                    (OIG) conducted a review to determine which of the 46
                                    recommendations in the Counterintelligence Implementation Plan
                                    had been implemented. The results of the OIG review were
                                    published in a report titled “REVIEW OF THE STATUS OF THE
                                    U.S. DEPARTMENT OF ENERGY’S COUNTER-
                                    INTELLIGENCE IMPLEMENTATION PLAN,” DOE/IG-0448,
                                    dated July 1999. The OIG found that 28 of 46 recommendations in
                                    the Counterintelligence Implementation Plan had been
                                    implemented at the time of the review. The OIG also provided five


1
    The National Defense Authorization Act for Fiscal Year 2000 also established the National Nuclear Security
    Administration (NNSA) with responsibilities for counterintelligence, intelligence, and security. A number of
    Department of Energy program offices, Operations Offices, and National Laboratories report, in whole or in part,
    to the NNSA. Any reference to the Department of Energy includes the NNSA.
2
    The Inspectors General of the Departments of Commerce, Defense, State, and the Treasury, and the Inspector
    General of the Central Intelligence Agency.



Page 1                                                        Follow-on Review of the Status of the
                                                              U.S. Department of Energy’s
                                                              Counterintelligence Implementation Plan
                   suggested actions to help ensure the Counterintelligence
                   Implementation Plan is a success. The actions taken by
                   Energy officials regarding the OIG suggestions are discussed in
                   Appendix B.

                   The purpose of our inspection was to review, among other things,
                   the actions taken by Energy officials on the 18 recommendations in
                   the Counterintelligence Implementation Plan that were open at the
                   time of the 1999 OIG review. The objectives of our inspection
                   were to determine: (1) the status of the 18 recommendations,
                   (2) whether information is shared between the Energy Office of
                   Counterintelligence and other agencies, and (3) the level of
                   involvement by the Energy Office of Intelligence with other
                   agencies in the development of information to help counter illicit
                   technology transfer.

OBSERVATIONS AND   We determined that, of the 18 recommendations in the
CONCLUSIONS        Counterintelligence Implementation Plan that were open at the
                   time of the 1999 OIG review, 10 recommendations are currently
                   open; six recommendations have been implemented; one
                   recommendation, in our view, has not been fully implemented; and
                   one recommendation will not be implemented. We identified
                   weaknesses in the implementation of 2 of the 10 open
                   recommendations and suggested actions that, in our view, will help
                   expedite their implementation. We did not assess the extent to
                   which the recommendations in the Counterintelligence
                   Implementation Plan will improve the effectiveness of Energy’s
                   counterintelligence program. We also determined that the Energy
                   Office of Counterintelligence and other US Government agencies
                   share counterintelligence information. In addition, we determined
                   that analyses developed by the Energy Office of Intelligence,
                   which might assist Energy and other government activities to
                   counter the illicit transfer of US technology to foreign
                   governments, are being made available to interested activities.




Page 2                                            Observations and Conclusions
Results of Inspection
COUNTER-                              The Counterintelligence Implementation Plan contained 46
INTELLIGENCE                          recommended actions. These recommendations were separated
IMPLEMENTATION                        into three tiers; tier one recommendations are considered the most
PLAN                                  critical. At the time of the 1999 OIG review, 21 of the 24
                                      recommendations in tier one had been implemented; 5 of the 12
                                      recommendations in tier two had been implemented; and 2 of the
                                      10 recommendations in tier three had been implemented.

                                      Our determination of the status of the 18 recommendations in the
                                      Counterintelligence Implementation Plan that were open at the
                                      time of the 1999 OIG review was based on discussions with
                                      Energy and Energy contractor officials at Energy Headquarters; the
                                      Oak Ridge Operations Office; and four Energy laboratories:
                                      Lawrence Livermore National Laboratory, Los Alamos National
                                      Laboratory, Oak Ridge National Laboratory, and Sandia National
                                      Laboratory-Albuquerque. The following table provides a status by
                                      tier of the recommendations in the Counterintelligence
                                      Implementation Plan as of February 14, 2000.

                                                  Status of Counterintelligence Implementation Plan
                                                      Recommendations as of February 14, 2000

                                        Recommendations             Total        Implemented3              Open
                                          Tier 1                     24               23                     1
                                          Tier 2                     12                8                     4
                                          Tier 3                     10                5                     5
                                          TOTAL                      46               36                    10


Additional                            Of the 18 recommendations that were open at the time of the 1999
Recommendations                       OIG review, we found that six recommendations have been
Have Been                             implemented and one recommendation will not be implemented.4
Implemented                           These recommendations are discussed in Appendix C.




3
    We do not agree with the Office of Counterintelligence that Recommendation 42 has been fully implemented.
4
    As discussed in the July 1999 OIG Report, Recommendation No. 46, which is a tier 3 recommendation,
    will not be implemented because Energy believes that this action would decrease the level of interaction
    between its counterintelligence functions and the Federal Bureau of Investigation.


Page 3                                                                                   Results of Inspection
One Recommendation   We found that although the Office of Counterintelligence
Was Not Fully        considered Recommendation 42 to be implemented, additional
Implemented          action was required by the Federal Bureau of Investigation (FBI).

                     Recommendation 42 states that: “The team does not believe that
                     Background Investigations (BIs) are being conducted
                     satisfactorily. As such and as per DOE Order 472.1B Personnel
                     Security Activities and the Atomic Energy Act, as amended, DOE
                     should request that all further Single Scope Background
                     Investigations (SSBIs) be conducted by the FBI.”

                     A Headquarters Office of Counterintelligence official said that the
                     Secretary of Energy requested the FBI conduct all “Q clearance”
                     background investigations, including SSBIs. Although the Office
                     of Counterintelligence considered this recommendation
                     implemented, we determined that the FBI has not assumed
                     responsibility for conducting all SSBIs. We learned that Energy,
                     FBI, and Office of Personnel Management officials examined this
                     issue and determined that the FBI would initially conduct 150
                     reinvestigations in calendar year 2000. Based on the results of the
                     150 reinvestigations, a determination will be made whether the FBI
                     will conduct all SSBIs.

                     In comments dated March 6, 2000, to our draft report, the Director,
                     Office of Counterintelligence, stated that it remains the view of his
                     office that the recommendation has been implemented, since the
                     Secretary of Energy has requested assistance from the FBI.
                     However, he also stated that our report raises a valid concern
                     regarding the progress of the FBI in conducting the SSBIs.

Some                 We also found that 10 of the recommendations in the
Recommendations      Counterintelligence Implementation Plan have not been
Have Not Been        implemented. Of these, 4 recommendations require action by the
Implemented          Headquarters Office of Counterintelligence; 4 recommendations
                     require action by other Headquarters organizations; and, 2
                     recommendations require actions by field organizations. These
                     recommendations and the current status of their implementation
                     are discussed in Appendix D.




Page 4                                                           Results of Inspection
Weaknesses                          Our review identified weaknesses in implementation actions for
Identified In                       two recommendations. These weaknesses are discussed below,
Implementation                      along with suggested actions that we believe will help expedite
                                    implementation of the recommendations.

Foreign Visits and                  Recommendation 30 states that the Visit and Assignment
Assignments                         Management System (VAMS) recapitalization project should be
                                    cancelled and local databases, many of which are already
                                    developed, should be used to approve and track all foreign visit
                                    and assignment requests. It also states that the Energy Office of
                                    Counterintelligence would take the lead in designing a new
                                    centralized reporting system that will track (and thus be able to
                                    definitively report to Congress on) those visits and assignments
                                    which actually occurred.

                                    We learned that the Foreign Access Records Management System
                                    (FARMS), which is operated by Energy’s Office of Foreign Visits
                                    and Assignments, has replaced VAMS as Energy’s central
                                    database for tracking foreign visits and assignments. By
                                    memorandum dated September 15, 1999, the Director of the Office
                                    of Counterintelligence provided the Director of the Office of
                                    Security and Emergency Operations5 a list of counterintelligence
                                    requirements for the central foreign visits and assignments tracking
                                    system to be utilized by Energy. One of the requirements was that
                                    data from all Energy sites that receive foreign national visitors
                                    and/or assignees must reside in the tracking system. According to
                                    the Director of the Office of Counterintelligence, if FARMS
                                    cannot meet the counterintelligence requirements, a new system
                                    may be necessary.

                                    We were advised by an official in Energy’s Office of Foreign
                                    Visits and Assignments, however, that at the present time FARMS
                                    cannot provide the precise number of foreign visitors or assignees
                                    to Energy facilities. According to the official, the current Energy
                                    policy does not require Energy laboratories to enter data into
                                    FARMS. Consequently, some Energy laboratories are not entering
                                    data on foreign visits and assignments into FARMS.

                                    In the absence of complete data in FARMS regarding foreign visits
                                    and assignments to Energy sites, the counterintelligence
                                    requirement that data on foreign visits and assignments to all
                                    Energy sites must reside in Energy’s central tracking system
                                    cannot be met. Therefore, we suggest that Energy officials take
                                    appropriate action to ensure that, as a minimum, Energy sites are
5
    The Office of Foreign Visits and Assignments, which operates FARMS, is within the Office of Security and
    Emergency Operations.


Page 5                                                                                Results of Inspection
                                   required to enter data concerning foreign visits and assignments
                                   into FARMS or a designated central Energy database.

SCI Clearance Process              Recommendation 32 states that counterintelligence analysts at the
                                   three nuclear weapons laboratories6 should be co-located with
                                   Field Intelligence Elements (FIEs) to better integrate the field
                                   counterintelligence and intelligence elements at the laboratories.
                                   We determined that the required co-location of field
                                   counterintelligence analysts with the FIEs at the Energy
                                   laboratories that we visited has not taken place because the field
                                   counterintelligence analysts have not received clearances to access
                                   Sensitive Compartmented Information (SCI). The field
                                   counterintelligence program managers at the laboratories, which
                                   included the three nuclear weapons laboratories, told us that SCI
                                   clearances for themselves and the analysts have taken, or are
                                   taking, months to obtain. This has caused delays in implementing
                                   this recommendation.

                                   In view of the above, we suggest that Energy officials take
                                   appropriate action to expedite Energy’s processing of SCI
                                   clearances for the field counterintelligence analysts to enable them
                                   to be co-located with the field intelligence analysts.

                                   In comments dated March 6, 2000, to our draft report, the Director,
                                   Office of Intelligence, stated that obtaining an SCI clearance is a
                                   lengthy process. He said that Office of Counterintelligence
                                   personnel have received “quite a bit of extra attention” because of
                                   PDD-61. He also stated that although the Sensitive
                                   Compartmented Information Facilities (SCIFs) are not large
                                   enough to accommodate all field intelligence and
                                   counterintelligence personnel, it has been agreed that the
                                   counterintelligence analysts will be provided access to the SCIFs
                                   to perform SCI functions once the analysts are SCI-cleared.

INFORMATION                        We were told by Energy Headquarters Office of Counter-
SHARING BY THE                     intelligence officials, as well as by field counterintelligence
OFFICE OF                          officials, that counterintelligence information is shared within the
COUNTER-                           counterintelligence community on a regular basis. For example,
INTELLIGENCE                       the Office of Counterintelligence shares, on a limited distribution
                                   basis, country-specific counterintelligence threat assessments with
                                   other members of the counterintelligence community. Also,
                                   counterintelligence program managers at the Energy laboratories
                                   said that they conduct liaison on both a formal and informal basis
                                   with, among others, the FBI, the CIA, and the Air Force Office of
6
    Lawrence Livermore National Laboratory, Los Alamos National Laboratory, and Sandia National Laboratory-
    Albuquerque.


Page 6                                                                             Results of Inspection
                 Special Investigations. We were told that, as an example of efforts
                 to share information, a field counterintelligence activity at one
                 Energy laboratory has established a “Counterintelligence
                 Coordination Committee.” This Committee includes
                 representatives from the Energy laboratory, the Energy Operations
                 Office, the FBI, the CIA, and the US Customs Service.
                 Representatives of agencies that we contacted confirmed that
                 counterintelligence information is being shared between their
                 respective agencies and the Energy Office of Counterintelligence.
                 No concerns were identified by the representatives regarding the
                 sharing of counterintelligence information.

INVOLVEMENT BY   We sought to determine the involvement by the Energy Office of
THE OFFICE OF    Intelligence with other agencies in the development of information
INTELLIGENCE     to help counter illicit technology transfer. We learned that
                 analyses developed by the Energy Office of Intelligence might be
                 of use to other agencies in identifying information or technology
                 that foreign governments might need to further their nuclear
                 weapons programs. A list of topics proposed for analyses by the
                 Energy Office of Intelligence is developed in-house and provided
                 to Energy officials and officials of other US Government agencies.
                 Based on interest expressed by these officials, the Energy Office of
                 Intelligence conducts intelligence analyses using the nuclear
                 expertise in the Energy laboratories. The Office also conducts
                 nuclear-related technology assessments at the request of other
                 agencies. We were told, for example, that topics normally involve
                 foreign intelligence analyses that could support Energy
                 nonproliferation activities or US Government policymakers, or that
                 could be of interest to members of the Intelligence Community,
                 Energy’s Office of Counterintelligence, the counterintelligence
                 community, or law enforcement.

                 The Energy Office of Intelligence typically provides the results of
                 its analyses to Energy officials or US Government agencies based
                 on the stated interest of the official or agency. The following are
                 examples of recent foreign technology-related intelligence analyses
                 produced by the Energy Office of Intelligence and provided to
                 interested activities, both within Energy and within the Intelligence
                 Community.
                     “Machine Tool Procurement Summary” (U)

                     “Challenges of Advanced Nuclear Weapon Development in
                      Pakistan” (U)




Page 7                                                       Results of Inspection
                 “Chinese Computational Capabilities for Supporting Stockpile
                  Maintenance” (U)

                 “Challenges of Advanced Nuclear Weapons Development in
                  India” (U)

                 “China – A Nuclear Supplier, Playing a Deadly Game”           (U)

                 “Proliferation Aspects of Commercial Nuclear Reactor
                  Designs” (U)

                 “Computer, Nuclear Weapons, and U.S. Security” (U)

             Representatives of agencies that we contacted confirmed that their
             agencies received reports prepared by the Energy Office of
             Intelligence and that the reports were utilized in their agencies'
             intelligence and counterintelligence activities. However, we did
             not determine if the intelligence analyses provided by Energy were
             specifically utilized in efforts to counter illicit technology transfer.
             Several representatives commented on the high quality of the
             reports.

MANAGEMENT   Management generally agreed with our report. The Director,
REACTION     Office of Counterintelligence, agreed generally with the
             observations and conclusions in our draft report and appreciated
             our suggestions. He said that his office is working with Energy
             Headquarters offices to speed implementation of the 10
             outstanding recommendations in the Counterintelligence
             Implementation Plan. The Director, Office of Intelligence,
             concurred with our description of the involvement by his office
             with other agencies in the development of information to help
             counter illicit technology transfer. The Director, Office of Foreign
             Visits and Assignments, provided an update and status report on
             two recommendations in the Counterintelligence Implementation
             Plan that were discussed in our draft report.

INSPECTOR    We believe management’s comments are appropriate.
COMMENTS




Page 8                          Management Reaction/Inspector Comments
Appendix A
SCOPE AND     We conducted the field work portion of our review during the
METHODOLOGY   period December 1999 to February 2000 at Energy Headquarters,
              the Oak Ridge Operations Office, and four Energy laboratories;
              Los Alamos National Laboratory, Sandia National Laboratory -
              Albuquerque, Lawrence Livermore National Laboratory, and Oak
              Ridge National Laboratory. We interviewed officials in the
              Energy Headquarters Office of Counterintelligence, the Oak Ridge
              Operations Office, and the four Energy laboratories, including
              counterintelligence program managers and personnel responsible
              for the counterintelligence programs at the respective sites. At the
              time of our review, the Energy Office of Counterintelligence was
              in the process of hiring federal employees to oversee the counter-
              intelligence programs at the Energy Operations Offices in
              Albuquerque, New Mexico, and Oakland, California. We also
              interviewed officials in Energy’s Office of Intelligence to
              determine the involvement of the Office with other agencies in the
              development of information to help counter illicit technology
              transfer.

              We reviewed the Office of Inspector General Audit Report titled
              “REVIEW OF THE STATUS OF THE U.S. DEPARTMENT OF
              ENERGY’S COUNTERINTELLIGENCE IMPLEMENTATION
              PLAN,” DOE/IG-0448, dated July 1999. For those
              recommendations in the Counterintelligence Implementation Plan
              that Energy Office of Counterintelligence officials reported were
              implemented, we reviewed applicable documentation, observed
              practices, and interviewed Energy and Energy contractor
              counterintelligence officials at selected locations to determine if
              the recommendation(s) had, in fact, been implemented.

              This inspection was conducted in accordance with the Quality
              Standards for Inspections issued by the President’s Council on
              Integrity and Efficiency.




Page 9                                                Scope and Methodology
Appendix B

            ENERGY IMPLEMENTATION OF 1999 OIG SUGGESTIONS


The July 1999 Energy Office of Inspector General (OIG) report on the status of the
Counterintelligence Implementation Plan identified weaknesses in the implementation actions
for certain recommendations in the Plan and suggested actions to help ensure that the Plan was a
success. During our review, we attempted to determine what actions, if any, were taken by
Energy officials to implement the OIG suggestions.

Regarding the OIG suggestion that procedures for liaison of local counterintelligence officers
with their Federal Bureau of Investigation, Central Intelligence Agency, and National Security
Agency counterparts be formalized in writing (Recommendations 19, 21, and 22), we were told
by Energy Office of Counterintelligence and Energy laboratory counterintelligence officials that
formalized written procedures have been developed for liaison with counterintelligence
counterparts in other agencies.

Regarding the OIG suggestion that the minimum standards for counterintelligence and security
awareness briefings to be presented to various segments of the laboratory community be
formalized in writing (Recommendation 25), we were told by an Energy Office of
Counterintelligence official that no minimum standards have been written. The official stated
that the differences in counterintelligence needs of those attending the briefings vary to the
degree that no minimum standards could be determined. The official also said, however, that
each briefing will be tailored to the respective audience.

Regarding the OIG suggestion that publication of Energy Order 1240.2C, “UNCLASSIFIED
VISITS AND ASSIGNMENTS BY FOREIGN NATIONALS,” be expedited,
(Recommendation 6), we learned that on July 14, 1999, Energy Notice 142.1, “UNCLASSIFIED
FOREIGN VISITS AND ASSIGNMENTS,” was published. The Energy Notice,7 which was
issued in lieu of Energy Order 1240.2C, cancelled Energy Order 1240.2B, “UNCLASSIFIED
VISITS AND ASSIGNMENTS BY FOREIGN NATIONALS,” dated August 21, 1992.

Regarding the OIG suggestion to expedite the design and implementation of a new centralized
reporting system to track data on foreign visits and assignments (Recommendation 30), we were
told by Energy Office of Counterintelligence officials and Energy field counterintelligence
program managers that the Visit and Assignment Management System (VAMS) has been
replaced. Each field counterintelligence program manager said that while a replacement for
VAMS8 is being developed, local databases are being used to maintain this data, or will shortly
be in use.


7
    We were told by an Office of Foreign Visits and Assignments official that portions of the Energy Notice require
    clarification and that a revision to the Energy Notice is being developed.
8
    The Foreign Access Records Management System (FARMS) has replaced VAMS as the central Energy
    database for information on foreign visits and assignments. We were told, however, that not all Energy sites are
    entering data on foreign visits and assignments into FARMS.


Page 10                                             Energy Implementation of 1999 OIG Suggestions
Regarding the OIG suggestion to establish guidelines on when a counterintelligence officer
should sit on a Personnel Evaluation Board (Recommendation 43), we were told by an Energy
Headquarters Office of Counterintelligence official that these guidelines have yet to be
determined. The official stated that appropriate language will be incorporated into the
forthcoming Energy order for the Office of Counterintelligence. We were also told by the field
counterintelligence program managers that they have standard procedures for their involvement
in Personnel Evaluation Boards and typically do not sit on them.




Page 11                                  Energy Implementation of 1999 OIG Suggestions
Appendix C

    RECOMMENDATIONS IMPLEMENTED SINCE 1999 OIG REPORT


We determined, based on discussions with Energy and Energy contractor officials at Energy
Headquarters, the Oak Ridge Operations Office, and four Energy weapons laboratories;
Lawrence Livermore National Laboratory, Los Alamos National Laboratory, Oak Ridge
National Laboratory, and Sandia National Laboratory-Albuquerque, that the following
recommendations in the Energy Counterintelligence Implementation Plan have been
implemented since the July 1999 OIG review.

Recommendation 6: The current Energy policy and order on unclassified foreign visits and
assignments should be rescinded and a new policy issued by the Secretary of Energy. The goal
of this policy, among other things, is to delegate responsibility to approve unclassified foreign
visits and assignments to the laboratory directors.

•   Action taken: On July 14, 1999, the Office of the Secretary issued Energy Notice 142.1,
    “UNCLASSIFIED FOREIGN VISITS AND ASSIGNMENTS,” which delegates approval
    authority for all unclassified foreign visits and assignments at Energy field and contractor
    sites to the site manager/laboratory director.

In comments dated March 7, 2000, to our draft report, the Director, Office of Foreign Visits and
Assignments, stated that a new Directive on foreign visits and assignments is in progress.
According to the Director, the new Directive will reflect current Energy policy; respond to
requirements in prevailing Inspector General reports; highlight new transitions in the
management of foreign visit and assignment responsibilities; and include applicable
requirements of the Office of Counterintelligence, Export Control, Security, and Foreign
Intelligence. He stated that the new Directive, which is expected to be issued in June 2000, will
also clarify roles, responsibilities and authorities of officials relative to the foreign visits and
assignments program.

Recommendation 11: The Office of Counterintelligence will work with the Office of Security
Affairs to expand Energy’s current polygraph capability from existing resources to meet its
proposed mission. The Director of the Office of Counterintelligence will institute requirements
for counterintelligence polygraph testing for initial and ongoing access to all the high risk
programs beginning with the special access programs.

•   Action taken: 10 CFR Parts 709, 710, and 711, “Polygraph Examination Regulation: Final
    Rule,” was published in the Federal Register on December 17, 1999. The final rule, which
    was effective January 18, 2000, defines counterintelligence polygraph guidelines with special
    attention to high-risk programs, including special access programs.




Page 12                             Recommendations Implemented Since 1999 OIG Report
Recommendation 29: All employees, not exclusively those with clearances, should receive
counterintelligence and security awareness briefings.

•   Action taken: A Headquarters Office of Counterintelligence official said that all Energy
    employees will be required to attend counterintelligence and security awareness briefings.

We determined that, for the Energy sites we visited, all Energy and Energy contractor employees
are receiving counterintelligence and security awareness briefings.

Recommendation 33: One future focus of the Office of Counterintelligence Analysis Program
will be the area of "economic espionage," specifically Cooperative Research and Development
Agreements (CRADAs) conducted at the laboratories.

•   Action taken: A Headquarters Office of Counterintelligence official said that the Office has
    hired an analyst that specializes in economic espionage, with an emphasis on CRADAs. The
    official said that an economic espionage threat assessment is currently being developed.

Recommendation 34: Under the authority of the Secretary of Energy, the Director of the Office
of Counterintelligence will create a working group to identify high-risk Energy or Energy
contractor personnel outside the traditional high-risk programs. Subject matter experts from
Energy programs and laboratories, as well as counterintelligence and security personnel, will be
represented on this working group.

•   Action taken: A Headquarters Office of Counterintelligence official said that a working
    group was formed to, among other things, identify high-risk Energy or Energy contractor
    personnel outside the traditional high-risk programs. 10 CFR Parts 709, 710, and 711,
    “Polygraph Examination Regulation: Final Rule” was the result of this effort.

Recommendation 37: The Office of Counterintelligence will establish a continual in house
training program which will move beyond the introductory nature of current Energy
counterintelligence training courses, and ensure that there are also greater opportunities for all
counterintelligence officers (CIOs) to participate in applicable US Intelligence Community
training courses.

•   Action taken: A Headquarters Office of Counterintelligence official said that a
    comprehensive training program for CIOs has been created, which includes nine broad-based
    courses. This training program will be supplemented by Intelligence Community, Federal
    Bureau of Investigation, and Central Intelligence Agency courses and seminars. We
    determined that the field CIOs have access to newly established training courses throughout
    the intelligence and counterintelligence communities.




Page 13                             Recommendations Implemented Since 1999 OIG Report
Appendix D

                    STATUS OF OPEN RECOMMENDATIONS


Based on interviews with Energy Headquarters Office of Counterintelligence officials, as well as
counterintelligence program managers at four Energy laboratories and the Oak Ridge Operations
Office, we learned that the following efforts are being made, or will be made, to implement the
remaining open recommendations in the Counterintelligence Implementation Plan.

Recommendation 15: Within the next 24 months, the Director of the Office of
Counterintelligence will, in coordination with Energy laboratory directors, develop and
implement a complex-wide strategy to address the potential counterintelligence implications of
e-mail to foreign nations, primarily sensitive countries.

•   A Headquarters Office of Counterintelligence official said that the Energy Office of the
    Chief Information Officer has the lead on this matter. The Office of Counterintelligence
    recently initiated a Counterintelligence-Cyber Pilot program to address the
    counterintelligence implications of e-mail to foreign nations and intrusion detection at Los
    Alamos National Laboratory (LANL), Sandia National Laboratory-Albuquerque (SNL-
    Albuquerque), Lawrence Livermore National Laboratory (LLNL), and Pacific Northwest
    National Laboratory (PNNL). The pilot program is scheduled for completion by mid-2000.

Recommendation 30: The Visit and Assignment Management System (VAMS) recapitalization
project should be cancelled. Local databases, many of which are already developed, should be
used to approve and track all foreign visit and assignment requests. The Office of
Counterintelligence will take the lead in designing a new centralized reporting system which will
track (and thus be able to definitively report to Congress on) those visits and assignments which
actually occurred, so that all such data for the entire Energy complex will be housed in one place.

•   We learned that the Foreign Access Records Management System (FARMS), which is
    operated by Energy’s Office of Foreign Visits and Assignments, has replaced VAMS as
    Energy’s central data base for foreign visits and assignments. The Office of
    Counterintelligence provided the Office of Foreign Visits and Assignments a list of
    requirements for Energy’s central foreign visits and assignments tracking system, including
    the requirement that data from all Energy sites that receive foreign national visitors and/or
    assignees must reside in the system. However, according to an official in the Office of
    Foreign Visits and Assignments, the current Energy policy does not require Energy
    laboratories to input data into FARMS and, therefore, some Energy laboratories are not
    entering data on foreign visits and assignments into the central database. Thus, Energy does
    not know the precise number of foreign visitors or assignees to its facilities.

In comments dated March 7, 2000, to our draft report, the Director, Office of Foreign Visits and
Assignments, stated that over the last six months, aggressive initiatives have been underway to
assess the efficiency and reliability of FARMS. He stated that, based on a review by his office of
the existing system to determine the capability of meeting current and evolving needs of
Energy’s Foreign Visits and Assignments program, a decision was made to proceed with dual


Page 14                                                     Status of Open Recommendations
initiatives. These initiatives include identifying the most critical remedial actions needed in
FARMS and making identified system corrections, and identifying and exploring alternative
systems capable of meeting the growing foreign visits and assignments needs across the Energy
complex. He identified June 2000 as the target date for full implementation of a new system at
Energy.

Recommendation 32: As mandated by Presidential Decision Directive (PDD)-61, in order to
better integrate the counterintelligence and field intelligence elements at the Energy laboratories,
counterintelligence analysts at the three nuclear weapons laboratories will be co-located with the
Field Intelligence Element (FIE).

•   A Headquarters Office of Counterintelligence official said that although the Fiscal Year (FY)
    1999 budget for the Office of Counterintelligence did not permit the hiring of field
    counterintelligence analysts, LANL and SNL-Albuquerque have hired field analysts that will
    soon be co-located with the FIE. Also, LLNL, PNNL, Oak Ridge National Laboratory
    (ORNL), and Idaho National Environmental Engineering Laboratory are attempting to hire
    additional analysts in FY 2000. We determined that counterintelligence analysts at LLNL,
    LANL, SNL-Albuquerque, and ORNL have been identified to be co-located with the FIE.
    However, the actual co-location has not taken place because the counterintelligence analysts
    have not received their Sensitive Compartmented Information (SCI) clearances. The
    counterintelligence program managers at LLNL, LANL, SNL-Albuquerque, and ORNL said
    that SCI clearances for themselves and their analysts have or are taking months to obtain,
    causing delays in their respective programs.

Recommendation 35: Within the next 12 months, the Director of the Office of
Counterintelligence will establish an initial intrusion detection and analysis capability in
coordination with Energy’s Chief Information Officer, Energy’s Chief Infrastructure Assurance
Officer, and Energy laboratory directors.

•   A Headquarters Office of Counterintelligence official said that the Office initiated a pilot
    program to deploy intrusion detection capabilities at Energy facilities; to coordinate
    investigation of detected intrusion activities; and to perform counterintelligence analyses of
    the resulting intrusion data. The official also said that initially the capability would be
    deployed at LLNL, LANL, SNL-Albuquerque, and PNNL, followed by eight other sites in
    FY 2000. We were told that the pilot program would be developed in coordination with the
    Office of the Chief Information Officer.

Recommendation 36: The Office of Counterintelligence recommends that the Secretary of
Energy establish a task force to develop a means for auditing all Energy-affiliated High
Performance Computers to ensure they are not being used by foreign nationals for purposes other
than what has been specifically authorized by export control authorities.

•   A Headquarters Office of Counterintelligence official said that the responsibility for this
    recommendation falls upon the Office of the Secretary and will require coordination among
    the Office of the Secretary, the Office of Counterintelligence, the Office of Defense
    Programs, and the Office of the Chief Information Officer.


Page 15                                                      Status of Open Recommendations
Recommendation 38: The Office of Counterintelligence will establish a mentoring program that
fosters the exchange of knowledge between experienced and inexperienced counterintelligence
officers.

•   A Headquarters Office of Counterintelligence official said that guidelines for a mentoring
    program are being developed. The guidelines will be in conjunction with other training
    requirements to be found in the forthcoming Energy order for the Office of
    Counterintelligence. We determined that mentoring efforts are already being established at
    several field sites.

Recommendation 39: In Phase II of this process, the Office of Counterintelligence will develop
a personnel system which will: 1) clearly articulate the standards by which new
counterintelligence officers will be hired; 2) establish individual performance measures for
existing counterintelligence officers; and 3) develop a career path to include training courses and
milestones, which will assist the professional advancement of counterintelligence officers.

•   A Headquarters Office of Counterintelligence official said that this personnel system will be
    addressed in the forthcoming Energy order for the Office of Counterintelligence. This order
    will be developed in coordination with the Office of Management and Administration.

Recommendation 41: The Office of Counterintelligence believes that the Secretary of Energy
should commission an independent and narrowly focused audit of the security clearance
adjudication process.

•   A Headquarters Office of Counterintelligence official said that the responsibility for this
    recommendation is with the Office of the Secretary and will require coordination among the
    Office of the Secretary, the Office of Counterintelligence, and the Office of Nonproliferation
    and National Security (now the Office of Defense Nuclear Nonproliferation).

Recommendation 43: Energy should require all Energy contractor-operated facilities where
classified and sensitive technical business is conducted to establish personnel evaluation boards
(PEBs).

•   A Headquarters Office of Counterintelligence official said that the Office is addressing this
    issue with the Office of the Chief Information Officer. The official also said that guidelines
    for PEBs will be incorporated into the forthcoming Energy order for the Office of
    Counterintelligence. We determined that a PEB or equivalent entity currently exists at
    LLNL, LANL, SNL-Albuquerque, and ORNL.

Recommendation 45: The Director of the Office of Counterintelligence will request the
assistance of the Central Intelligence Agency in filling critical substantive gaps by assigning
analysts on a rotational detail to the Office of Counterintelligence.

•   A Headquarters Office of Counterintelligence official said that only informal requests for
    assistance have been made to the Central Intelligence Agency because of reduced staffing
    levels at the Central Intelligence Agency. The official also said that a formal request for


Page 16                                                     Status of Open Recommendations
  individuals to be detailed to the Office of Counterintelligence from the Central Intelligence
  Agency will be made in calendar year 2000.




Page 17                                                   Status of Open Recommendations
                                                                    IG Report No. DOE/IG-0464

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

What additional background information about the selection, scheduling, scope, or procedures of
the inspection would have been helpful to the reader in understanding this report?

What additional information related to findings and recommendations could have been included
in this report to assist management in implementing corrective actions?

What format, stylistic, or organizational changes might have made this report’s overall message
more clear to the reader?

What additional actions could the Office of Inspector General have taken on the issues discussed
in the report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any
questions about your comments.

Name                                                 Date


Telephone                                            Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                  U.S. Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations


If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet and the following address:


              U.S. Department of Energy Office of Inspector General Home Page
                                   http://www.ig.doe.gov


  Your comments would be appreciated and can be provided on the Customer Response Form
                                 attached to the report.
